The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
                                        Meredith M. Broadbent
                                        F. Scott Kieff
         UNITED STATES INTERNATIONAL TRADE COMMISSION

                                     WASHINGTON, DC 20436



March 31, 2014                             IG-MM-005                        OIG-ML-14-11

Chairman Williamson:

We conducted a follow up review to determine whether the final action on a management
decision that the Commission reported as having been completed; had been implemented
effectively. The management decision was:

   The CIO will implement whitelist control on all domain-joined user PCs and Citrix servers.

We reviewed the technical control mechanisms used by the CIO to implement this technology
and determined that it could be used effectively. We also analyzed the catalog of permitted
software and determined that it was a reasonable and fairly controlled list. We created a test
designed to execute seven different software applications that were not listed in the catalog of
permitted software.

We then ran our test on fifteen different user PCs located in various ITC offices and on all the
floors. In addition, we also tested these unpermitted applications through the Citrix remote
access. Each time we attempted to run the prohibited applications we received an error message
indicating the whitelisting control was blocking the application from running. As a result we can
confirm that that all of the prohibited applications were blocked from being executed on the
user’s PC.

We have determined that the Commission’s final action on this management decision was
completed and was effective. This single management decision, to implement whitelist control,
serves to significantly enhance the Commission’s IT security posture and reduce the risk to its
data and systems.

Sincerely,



Philip M. Heneghan
Inspector General
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
